           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  AN INDIVIDUAL REPRESENTATIVE PAYEE
FOR THE SOCIAL SECURITY ADMINISTRATION
              IN MICHIGAN

      March 2011     A-15-09-19062




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      March 3, 2011                                                                   Refer To:

To:        James F. Martin
           Regional Commissioner
            Chicago

From:      Inspector General

Subject:   An Individual Representative Payee for the Social Security Administration in Michigan
           (A-15-09-19062)


           OBJECTIVE
           The objectives of our review were to ensure the selected representative payee had
           effective safeguards over the receipt and disbursement of Social Security benefits. We
           also determined whether the representative payee used and accounted for these
           benefits in accordance with the Social Security Administration’s (SSA) policies and
           procedures.

           BACKGROUND
           Some individuals cannot manage or direct the management of their finances because of
           their youth or mental and/or physical impairments. Congress granted SSA the authority
           to appoint representative payees to receive and disburse benefits for those
           beneficiaries’ payments. 1 A representative payee may be an individual or an
           organization. SSA selects representative payees for Old-Age, Survivors and Disability
           Insurance (OASDI) beneficiaries and Supplemental Security Income (SSI) recipients
           when representative payments would serve the individuals’ interests. Representative
           payees are responsible for managing benefits in the beneficiary’s best interest. 2

           SSA categorized the representative payee under review as a volume individual payee
           who cared for 15 or more SSA recipients.3 This representative payee was a licensed
           social worker in Michigan, specializing in the needs and issues that relate to older adults

           1
               Social Security Act §§ 205(j) and 1631(a)(2); 42 U.S.C. §§ 405(j) and 1383(a)(2).
           2
               We use the term “benefits” in this report to refer to both OASDI benefits and SSI payments.
           3
               SSA, Program Operations Manual System (POMS), GN 00605.400.
Page 2 – James F. Martin


and the aging population in general. During our initial audit period, June 1, 2007 to
May 31, 2008, this representative payee served approximately 164 SSA beneficiaries.
The representative payee was the court-appointed guardian or conservator for
approximately 90 percent of the beneficiaries she served. For the remaining
beneficiaries in her care, she served solely as the representative payee. Most of the
beneficiaries this representative payee served were elderly or suffered from
schizophrenia.

We conducted our initial site visit in August 2008. We reviewed 69 beneficiaries'
files from the total population for the period June 1, 2007 through May 31, 2008. During
our review, we noted several transactions that we considered to be irregular. These
transactions included reimbursements to related parties for services provided to the
beneficiaries, the use of unsupported cashier’s checks, and excessive fees collected by
the representative payee. Therefore, we expanded our sample and scope to include
the entire population of 164 beneficiaries from September 2006 through August 2008.
During this period, the representative payee received over $2.5 million in benefit
payments for the entire population of 164 beneficiaries.

At the conclusion of our fieldwork in February 2009, this matter was referred to our
Office of the Counsel to the Inspector General (Counsel) for Civil Monetary Penalty
consideration. Counsel initiated a Civil Monetary Penalty action, and the Office of the
Inspector General and the representative payee reached a settlement agreement
regarding the matter in August 2010. The issuance of this report was postponed until
the Civil Monetary Penalty matter was resolved.

RESULTS OF REVIEW
Although it appeared the representative payee provided a suitable level of care for the
beneficiaries, our review of records suggested she did not properly use and account for
the Social Security benefits received on behalf of the beneficiaries in her care. We
noted the representative payee operated a case management business that received
payments for providing services to the beneficiaries that were similar to the services she
provided as the representative payee. This business was solely owned by the
representative payee and staffed primarily by family members. 4 We noted there was a
lack of definable segregation of responsibilities and duties, which allowed this
environment to be susceptible to error, irregularities, and misuse.




4
    Family members for this report include children, former husband, children’s spouses, and an in-law.
Page 3 – James F. Martin


RELATED-PARTY TRANSACTIONS

During our review, we found that the representative payee employed immediate family
members as office staff. In addition, the representative payee used other family
members to provide services to 122 beneficiaries. These types of transactions are
considered related-party transactions.5 The representative payee hired family members
to

•   transport beneficiaries to and from doctor’s appointments and shopping trips;
•   purchase and deliver Christmas baskets to the beneficiaries;
•   provide pet care services for the beneficiaries;
•   purchase jewelry for several beneficiaries from a family member’s jewelry business;
•   assist beneficiaries in moving to new residences;
•   provide tax services for the beneficiaries; and
•   provide legal services for the beneficiaries.

In addition, one of the representative payee’s family members took four beneficiaries on
a chartered fishing trip. According to the Master Beneficiary Record, all four of the
beneficiaries suffered from schizophrenia. Each of these beneficiaries was charged
$200 for the fishing trip as well as $83 for transportation to and from the marina. A
family member also provided the transportation, and although the beneficiaries lived in
the same location, each beneficiary was charged for mileage as well as a $60 flat
charge.

For our review period, the representative payee paid over $80,000 to various family
members for these services. Although the amounts charged by family members in
some instances appeared reasonable, charges for services, such as moving
beneficiaries’ belongings and helping admit a beneficiary to the hospital, appeared
excessive. For example, one of the family members charged $50 an hour to pick a
beneficiary up from their home and sit with them at the emergency room until admitted.
This hourly rate appears excessive based on the services that were provided.

Relationships between parties may enable one of the parties to exercise a degree of
influence over the other. By using related parties to provide these services to the
beneficiary, the representative payee may not be getting the best possible rates for
these types of services. The representative payee is creating the risk that beneficiaries’
funds may not be used properly and in the best interest of the beneficiaries.




5
  A related-party transaction is an interaction between two parties, one of whom can exercise control or
significant influence over the operating policies of the other.
Page 4 – James F. Martin


CASHIER’S CHECKS

After reviewing the representative payee’s accounting records, we noted the
representative payee periodically issued cashier’s checks from the beneficiaries’
accounts. Cashier’s checks are issued by the bank. Unlike personal checks, cashier’s
checks immediately debit the account when the bank issues them. The representative
payee told us that she used cashier’s checks to pay pre-need funeral agreements,
housing expenses, and attorney fees for some of the beneficiaries. The representative
payee was able to provide supporting documentation for some cashier’s check
transactions.

However, we noted that for 29 beneficiaries, cashier’s checks issued from their
accounts were not adequately supported. Most of these checks were issued in
$500 increments and totaled $69,300. According to the representative payee, these
checks were used to pay the representative payee’s case management company
invoices, funeral agreements, and SSA overpayments. We found the representative
payee did not provide sufficient supporting documentation for these cashier’s check
transactions. For example, three cashier’s checks, totaling $1,500, were withdrawn
from one beneficiary’s account on June 8, 2007. The supporting documentation for this
transaction was a fax from the beneficiary’s guardian stating the funds were used to
repay an overpayment to SSA. According to SSA records, the overpayment notice was
sent to the representative payee on December 19, 2007. This was approximately
6 months after the money was withdrawn from the beneficiary’s account. The
overpayment was repaid to SSA on January 3, 2008.

We also noted for several beneficiaries who received Title XVI payments, cashier’s
checks were issued from their accounts when their balance exceeded the
$2,000 resource limit. 6

GUARDIANSHIP FEES

Michigan law 7 entitles guardians/conservators to reasonable compensation for services
rendered. The representative payee under review served as the guardian for
approximately 90 percent of beneficiaries in her care. We determined that the
representative payee collected reasonable monthly guardianship fees of approximately
$60 a month from 80 beneficiaries in her care from September 2006 through
August 2008. These fees totaled $71,055.

In addition to the monthly fees the representative payee collected, we noted additional
fees were collected from 34 of the 80 beneficiaries, as noted above. These additional
fees totaled approximately $49,423. SSA policies state a fee cannot be collected from a


6
  20 C.F.R. § 416.1205 Limitation on resources – Effective January 1, 1989 for an individual the resource
limit is $2,000.
7
    Michigan Complied Law § 700.5413.
Page 5 – James F. Martin


beneficiary if the payee is receiving compensation, including court/guardianship fees, for
performing any representative payee services for the individual. 8

We also noted, in addition to the 80 beneficiaries discussed above, 21 beneficiaries
were charged large fees by the representative payee. These fees totaled approximately
$113,526. According to the account records, over 50 percent of these beneficiaries
received only Social Security benefits. These beneficiaries were not always charged a
monthly fee but were billed through the representative payee’s case management
company. According to the representative payee, these fees were collected as
past-due guardianship fees from prior years of service, or services provided by her case
management company. The representative payee’s case management company
provided services similar to those performed as a representative payee. We noted the
representative payee would collect payment by issuing a check to herself from the
beneficiary's bank account or withdrawing funds from the beneficiary's account by way
of cashier’s check. For some of these fees, the representative payee provided invoices
from her business as support. However, we noted that fee amounts withdrawn were not
applied to the balances on the invoices.

When an individual is appointed a legal guardian for a competent or incompetent
beneficiary, or maintains a trust account on behalf of the beneficiary, part of the
beneficiary’s funds may be used for guardianship costs or court-ordered fees. These
fees may be collected provided the guardianships appear to be in the beneficiary’s best
interest; the beneficiary’s personal needs are met first; and the beneficiary’s funds
would not be depleted by the collection of guardianship fees. 9

UNALLOWABLE FEES

We identified one beneficiary for whom the representative payee was not the court-
appointed guardian and served only as the representative payee. This beneficiary was
charged $1,592 for guardianship fees. SSA’s procedures prohibit individual
representative payees from collecting a fee from SSA benefits for representative payee
services except in certain circumstances, such as court-ordered fees and fees for
serving as a legal guardian. 10 Although the representative payee was a court-appointed
guardian for most of the beneficiaries in her care and therefore was allowed to collect
guardianship fees, she inappropriately took fees from this beneficiary when she was not
the legally appointed guardian.




8
    SSA, POMS, GN 00506.20.
9
    SSA, POMS, GN 00602.040.
10
  SSA, POMS, GN 00602.001.A.2, GN 00602.110.A, GN 00602.040; SSA, A Guide for Representative
Payees (No. 05-10076), p. 2, February 2006.
Page 6 – James F. Martin


Misuse of benefits is the misappropriation of benefits by the payee. Misuse of benefits
occurs when the payee does not use the benefits for the beneficiary’s current and
foreseeable needs. Misused funds include unauthorized or excessive fees for
representative payee services. 11

NONCOMPLIANCE WITH SSA REPORTING POLICIES

According to SSA policies, anyone who wishes to receive benefits as a representative
payee must complete Form SSA-11, 12 Request to be a Representative Payee. One of
the questions on this Form asks the representative payee if he or she is a creditor or will
become a creditor to the beneficiary. During our review, we obtained the Forms SSA-
11 from 56 beneficiaries’ files. We noted for 20 beneficiaries, the representative payee
answered no to questions regarding becoming a creditor to the beneficiary. For these
20 beneficiaries, the representative payee collected retroactive guardianship fees,
court-petitioned fees, and monies due on outstanding invoices from her personal case
management company. For most of these invoices, the accrued balances were several
thousand dollars.

Social Security regulations 13 require that representative payees use the benefits they
receive for the current needs of the beneficiaries in their care. Representative payees
are responsible for keeping records and reporting on the use of benefits by completing
an annual Form SSA-623, Representative Payee Report. 14 This Report is used to
monitor how the payee spent and/or saved the benefits on behalf of the beneficiary and
identify situations where the representative payments may no longer be appropriate or
the payee may no longer be suitable. We obtained the Form SSA-623 from the
beneficiaries’ files. We noted the information reported on the SSA-623 conflicted with
the accounting records maintained by the representative payee for 32 of the
beneficiaries. We noted that the representative payee failed to report some of the
expenses incurred by the beneficiaries, cashier’s checks issued from the beneficiaries’
account, and fees taken by the representative payee.

INDIVIDUAL BANK ACCOUNTS DID NOT MEET SSA REQUIREMENTS

Our audit found that the representative payee did not properly title the individual bank
accounts for 15 beneficiaries in our initial sample of 69 beneficiaries. While the
accounts included the payee’s and beneficiaries’ names, they did not show the
representative payee had only a fiduciary interest. According to SSA guidelines,15 if a

11
     SSA, POMS, GN 00604.001.
12
     SSA, POMS, GN 00502.107.
13
     20 C.F.R.§§ 404.2035 and 416.635 What are the responsibilities of your representative payee?
14
     SSA, POMS, GN 00605.010.
15
     SSA, POMS, GN 02402.055.
Page 7 – James F. Martin


representative payee requests direct deposit, the title of the account or subaccount
must show that the representative payee has only a fiduciary interest in the account or
subaccount. The beneficiary must not have direct access to the account.

REPRESENTATIVE PAYEE WAS ACTING AS A CONDUIT PAYEE

Representative payees are responsible for ensuring the beneficiary’s current needs are
met. We noted that the representative payee was acting as a conduit payee 16 for
4 beneficiaries in our initial sample of 69 beneficiaries by improperly turning over all of
the monthly SSA benefit payments to the beneficiaries’ guardian. Conduit payees turn
over the full amount of the benefit payment to either the beneficiary or another person,
such as a care facility. They do not exercise control over the funds and cannot fully
account for how the funds are spent. The representative payee did not have any direct
interest in how the funds were used for the beneficiaries’ needs.

UNSUPPORTED TRANSACTIONS

We found the representative payee did not use proper accounting practices for the
receipt and disbursement of Social Security benefits. SSA representative payee
guidelines 17 state that the representative payee must keep a record of all money taken
from the beneficiary’s account and receipts for all items or services purchased. We
noted the representative did not maintain sufficient supporting documentation for large
purchases and personal spending of the beneficiaries’ funds for 19 beneficiaries. These
unsupported transactions totaled approximately $26,079. Specifically, we found the
representative payee paid a third party to take a beneficiary shopping. The third party
submitted a personal invoice asking for reimbursement for a $1,200 raincoat purchased
for the beneficiary with no receipt attached. The representative payee also had a family
member purchase a $1,400 television for a beneficiary. The representative payee did
not request any receipts for any of the items purchased.

INDEPENDENT REVIEW OF REPRESENTATIVE PAYEE

SSA field offices are required to conduct site visits and random reviews for all fee-for-
service and certain volume payees under the Expanding Monitoring Program. 18 After
our review, the Chicago Regional Office contracted with an independent accounting firm
to perform a triennial review of the representative payee. The accounting firm reviewed
only 10 beneficiary files and reported a few minor findings to SSA. However, none of
the findings reported dealt with related party transactions, cashier’s checks, or
excessive fees. These findings conflict with the results of our review. Because of the
inconsistencies noted in the independent accounting firm’s report and our review, we
requested the accounting firm’s working papers to determine whether the above-noted

16
     SSA, POMS, GN 00608.044.
17
     A Guide for Representative Payees (No. 05-10076) February 2006.
18
     SSA, POMS, GN 00605.400.
Page 8 – James F. Martin


issues still existed. The Chicago Regional Office was not able to provide the working
papers from the independent accounting firm because of restrictions in their contract
agreement.

CONCLUSION AND RECOMMENDATIONS
Our review found that the representative payee did not use and account for SSA
benefits in accordance with SSA policies and procedures and did not use proper
accounting practices when handling the Social Security benefits received on behalf of
the beneficiaries in her care. Specifically, the representative payee used family
members to perform services and make purchases for the beneficiaries; used cashier’s
checks to spend down the beneficiaries’ account; and collected excessive fees from the
beneficiaries. These actions by the representative payee put the beneficiaries’ funds at
risk for improper use or possible misappropriation.

We recommend SSA:

1. Refrain from placing additional beneficiaries with this individual payee until a
   thorough review of the payee’s accounting practices (specifically the use of family
   members performing services for the beneficiaries; using cashier’s checks without
   proper supporting documentation; and making large purchases without supporting
   documentation) has been performed. At the conclusion of this review, determine
   whether the current beneficiaries should remain in the representative payee’s care.

2. Perform a more in-depth review of the beneficiaries’ accounting records to ensure
   they are not being charged excessive fees through the representative payee’s case
   management business; and that funds are conserved for the beneficiaries’ future
   needs.

3. Consider seeking restitution of $1,592 on the behalf of the one beneficiary from
   whom the representative payee collected unallowable fees from September 2006
   through August 2008.

4. Work with independent accounting firms hired to conduct triennial reviews of
   representative payees to obtain access to the firm’s work papers to support the
   results of the work completed.
Page 9 – James F. Martin


AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendations. SSA’s comments are included in Appendix D.
The representative payee also provided comments to our report. Although the
representative payee did not agree with our conclusions in the report, it stated it had
taken action to address some of these issues.




                                     Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Representative Payee Responsibilities
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                           Appendix A

Acronyms
C.F.R.    Code of Federal Regulations
Counsel   Office of the Counsel to the Inspector General
OASDI     Old-Age, Survivors and Disability Insurance
POMS      Program Operations Manual System
SSA       Social Security Administration
SSI       Supplemental Security Income
U.S.C.    United States Code
                                                                         Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. The responsibilities include the following. 1

      •   Determine the beneficiary’s current needs for day-to-day living and use his/her
          payments to meet those needs.
      •   Conserve and invest benefits not needed to meet the beneficiary’s current needs.
      •   Maintain account records of how the benefits are received and used.
      •   Report events to the Social Security Administration (SSA) that may affect the
          individual’s entitlement or benefit payment amount.
      •   Report any changes in circumstances that would affect their performance as a
          representative payee.
      •   Provide SSA an annual Representative Payee Report to account for benefits
          spent and invested.
      •   Return any payments to SSA to which the beneficiary is not entitled.
      •   Return conserved funds to SSA when no longer serving as the representative
          payee for the beneficiary.
      •   Be aware of any other income Supplemental Security Income recipients may
          have and monitor their conserved funds to ensure they do not exceed resource
          limits




1
    20 C.F.R. §§ 404.2035 and 416.635.
                                                                     Appendix C

Scope and Methodology
Our audit covered the period September 1, 2006 through August 31, 2008. To
accomplish our objectives, we:

   •   Reviewed applicable Federal laws and regulations as well as the Social Security
       Administration’s (SSA) policies and procedures pertaining to representative
       payees.

   •   Reviewed prior Office of the Inspector General and SSA work in the
       representative payee area.

   •   Contacted SSA’s Chicago Regional Office to obtain background information and
       prior audits regarding the individual representative payee.

   •   Compared and reconciled a list of SSA beneficiaries in the representative
       payee’s care from the payee to a list obtained from the representative payee
       system.

   •   Reviewed the representative payee’s internal controls over the receipt and
       disbursement of Social Security benefits.

   •   Selected a sample of 50 beneficiaries for whom the individual served as the
       representative payee and guardian. We also reviewed all the beneficiaries’ files
       where the representative payee served only as the representative payee or
       served as both the representative payee and conservator. For our three
       populations of beneficiaries, we performed the following tests.

          o Compared benefit amounts paid according to SSA’s records to the benefit
            payments recorded in the payee’s accounting records.

          o Reviewed the beneficiaries’ bank statements and the payee’s accounting
            records to determine whether benefit payments were properly deposited.

          o Reviewed beneficiary files for supporting documentation of expenses and
            personal spending.

   •   Expanded the scope of our review to include the entire population of
       164 beneficiaries who were served by the representative payee from
       September 2006 to August 2008. For these beneficiaries, we only reviewed the




                                           C-1
    accounting records and verified selected transactions that related to related party
    transactions, cashier’s checks, and excessive fees collected by the
    representative payee.

•   Conducted a site visit at one care facility that housed several beneficiaries in the
    representative payee’s care. We interviewed four beneficiaries to determine
    whether their basic needs were being met.

We determined that the computerized data used during our review were sufficiently
reliable given our objective, and the intended use of the data should not lead to
incorrect or unintentional conclusions.

We performed our fieldwork in Michigan, from August 2008 to February 2009. We
conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




                                          C-2
                                                                       Appendix D

Agency Comments

DATE:   February 11, 2011

TO:     Inspector General

FROM:   Regional Commissioner
        Chicago

SUBJECT:  Audit # 22008057 Draft Report, An Individual Representative Payee for the
Social Security Administration in Michigan (A-15-09-19062)Your Memorandum Dated
December 15, 2010)--REPLY


Thank you for the opportunity to comment on the draft report presenting the results of
your audit of an Individual Representative Payee for the Social Security Administration
in Michigan. Having reviewed the report, we submit the following comments.

You recommended that SSA:

1. Refrain from placing additional beneficiaries with this individual payee until a
   thorough review of the payee’s accounting practices (specifically the use of family
   members performing services for the beneficiaries; using cashier’s checks without
   proper supporting documentation; and making large purchases without supporting
   documentation) has been performed. At the conclusion of this review, determine
   whether the current beneficiaries should remain in the representative payee’s care.

Comment:
We stopped placing additional beneficiaries with the payee in question, effective
immediately. We will do a review of the payee’s accounting practices to determine
whether the payee is suitable to continue.

2. Perform a more in-depth review of the beneficiaries’ accounting records to ensure
   they are not being charged excessive fees through the representative payee’s case
   management business; and that funds are conserved for the beneficiaries’ future
   needs.

Comment:
We will review the financial records of a sample of additional beneficiaries to determine
if the payee collected inappropriate fees.




                                          D-1
3. Consider seeking restitution of $1,592 on behalf of the one beneficiary from whom
   the representative payee collected unallowable fees from September 2006 through
   August 2008.

Comment:
We will consider doing misuse development for the beneficiary whose account was
billed for representative payee services and for whom the payee was not a guardian.
However, we have been informed that this beneficiary is now deceased.

4. Work with independent accounting firms hired to conduct triennial reviews of
   representative payees to obtain access to the firm’s work papers to support the
   results of the work completed.

Comment:
We will ask our contracting officer to investigate pursuing a contract that allows sharing
of the contractor’s work papers with OIG.

Again, we thank you for your assistance, now and in the future, and we appreciate
being given the opportunity to comment on this draft report. If members of your staff
have questions, they may contact Marva Watkins at 312-575-4207.


                                                      /s/
                                                 James F. Martin




                                           D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director for Financial Audit Division
   Mark Meehan, Audit Manager

Acknowledgments

In addition to those named above:

   Judi Kammer, Senior Auditor
   Kelly Stankus, Auditor
   David Rodriguez, Attorney

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-09-19062.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
